                                      TVA RESTRICTED INFORMATION




Memorandum from the Office of the Inspector General



May 18, 2012

Tom Kilgore, WT 7B-K

REQUEST FOR FINAL ACTION – INSPECTION 2010-13088 – WATTS BAR NUCLEAR
PLANT UNIT 2 PROJECT SET-UP AND MANAGEMENT ISSUES AFFECTED COST
AND SCHEDULE



Attached is the subject final report for your review and action. Your written comments,
which addressed your management decision and actions planned or taken, have been
included in the report. Please notify us when final action is complete.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have questions or wish to discuss our findings, please contact me at (865) 633-7450.
We appreciate the courtesy and cooperation received from your staff during the inspection.




Robert E. Martin
Assistant Inspector General
 (Audits and Evaluations)
ET 3C-K

MLC:HAC
Attachment
cc (Attachment):
      Micheal B. Fussell, WT 9B-K
      Peyton T. Hairston, Jr., WT 7B-K
      Joseph J. Hoagland, WT 7B-K
      Raymond A. Hruby, OSA 1A-BLN
      Richard W. Moore, ET 4C-K
      Emily J. Reynolds, OCP 1L-NST
      Michael D. Skaggs, LP 6A-C
      Kelly D. Stinson, Jr., OSA 1A-BLN
      Preston D. Swafford, LP 3R-C
      John M. Thomas III, MR 6D-C
      Robert B. Wells, WT 9B-K
      Oswald J. Zeringue, EQB 1B-WBN
      OIG File No. 2010-13088
      WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
      distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
               is not to be further distributed without prior approval of the Inspector General or his designee.

                                      TVA RESTRICTED INFORMATION
                     TVA RESTRICTED INFORMATION



                                                                 Tennessee Valley Authority
                                                                 Office of the Inspector General



Inspection Report

WATTS BAR NUCLEAR
PLANT UNIT 2 PROJECT
SET-UP AND
MANAGEMENT ISSUES
AFFECTED COST AND
SCHEDULE

                                                                                           Inspection 2010-13088
                                                                                                    May 18, 2012


   WARNING: This document is FOR OFFICIAL USE ONLY. It is to be controlled, stored, handled, transmitted,
   distributed, and disposed of in accordance with TVA policy relating to Information Security. This information
           is not to be further distributed without prior approval of the Inspector General or his designee.



                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                         Inspection Report




ABBREVIATIONS
ASME                       American Society of Mechanical Engineers
BFN                        Browns Ferry Nuclear Plant
DSEP                       Detailed Scoping, Estimating, and Planning
EPC                        Engineering, Procurement, and Construction
ETC                        Estimate to Complete
FY                         Fiscal Year
NGDC                       Nuclear Generation Development and Construction
NRC                        Nuclear Regulatory Commission
OIG                        Office of the Inspector General
PEG                        Procurement Engineering Group
QA                         Quality Assurance
QC                         Quality Control
Rev                        Revision
SVP                        Senior Vice President
TVA                        Tennessee Valley Authority
VP                         Vice President
WBN                        Watts Bar Nuclear Plant




Inspection 2010-13088

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                                  Inspection Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 4

FINDINGS ......................................................................................................... 4

   SCHEDULE AND COST GOALS WILL NOT BE MET ..................................... 5

   PROJECT SET-UP PROBLEMS IMPACTED THE COMPLETION
   OF WBN UNIT 2 ............................................................................................... 5

   INEFFECTIVE MANAGEMENT OVERSIGHT.................................................. 9

TVA’S ACTIONS TO ADDRESS IDENTIFIED PROBLEMS ............... 22

RECOMMENDATIONS ................................................................................ 23

BECHTEL’S RESPONSE ............................................................................ 24

TVA’S RESPONSE ....................................................................................... 26


APPENDICES
A. LETTER DATED MAY 7, 2012, FROM JAMES M. MCLEMORE TO
   ROBERT E. MARTIN

B. MEMORANDUM DATED MAY 14, 2012, FROM TOM KILGORE TO
   ROBERT E. MARTIN




Inspection 2010-13088

                                      TVA RESTRICTED INFORMATION
            Inspe
                ection 2010-13088  8 – Watts Bar Nuclear Plant
              Unnit 2 Proje
                          ect Set-Up and Ma anagement Issuess
                        Afffected Coost and S
                                            Schedule
                         EXECUTIV  VE SUMM MARY

Why the
      e OIG Did This
                T    Review
                          w

  Sincee the Tenne  essee Valleey Authorityy (TVA) beg  gan construction on Watts
  Bar Nuclear
       N         Plannt (WBN) Unit
                                U 2 in Occtober 2007    7, the OIG (Office of the
  Inspeector Generral) has had  d staff assig
                                            gned to atteend meeting gs at the
  projecct site in order to keepp abreast off managem  ment challennges as the e
  OIG conducts
        c          its
                     s various re
                                eviews. As a result of the OIG’s w  work, it
  becam me evident in 2010 tha  at many of the issues raised in m meetings we  ere
  symp ptomatic of much broad   der problem ms that incrreased the risk of
  excee eding the project’s sch hedule and budget. W   We conducte  ed this revie
                                                                                ew
  to (1) assess TV  VA’s schedu ule and cosst performance on thiss project and  d
  (2) identify any weaknesse
                     w           s in the pro
                                            oject’s set-u
                                                        up and man nagement a  and
  recommmend actions to imprrove sched ule and cosst performa      ance on thiss
  and fuuture projec cts.

  In midd-2011, we met with TVA
                            T   execut ives to brie
                                                  ef them on oour concern ns
  surrounding the project. In August 20
                                      011, we brieefed the Audit, Risk, and
  Reguulation Commmittee on our
                            o concern ns and the p preliminaryy findings off this
  reporrt.

What the
       e OIG Foun
                nd

  The WBN
       W      Unit 2 constructio
                               on project hhas experie enced significant scheedule
  and cost
       c     overrun
                   ns. The pro oject was ooriginally exxpected to b
                                                                  be complete ed in
  Octobber 2012 att a cost of ju
                               ust under $$2.5 billion. However, TVA will no  ot
  meet these targe  ets. On Appril 5, 2012, TVA announced an a    additional
  $1.5 billion
        b      to $2
                   2 billion wou
                               uld be requuired to commplete the pproject with an
  estim
      mated time ofo completio on between n Septembe   er and Deceember 2015  5.
  TVA’s s Board of Directors approved the  e revised sschedule an nd budget oon
  April 26, 2012.

  We foound two prrimary reassons for the e schedule a  and cost ovverruns. Ba  ased
  on ou
      ur assessment of the in  ndividual isssues raised d in variouss meetings,,
  discussions withh WBN Unitt 2 and TVA    A personnel, and revie  ews of projeect
  docummentation, we determined that th    he poor perfformance e  experienced  d at
  WBN Unit 2 was  s attributablle primarily to (1) deficciencies in p
                                                                    project set--up
  and (2) ineffectiv
                   ve management overssight.

  Problems with th
                 he original project
                             p       set--up included
                                                    d the follow
                                                               wing:

     Th
       he project’s
                  s detailed sc
                              coping, esttimating, an
                                                    nd planning study was not
      as
       s robust as it should ha
                              ave been too provide aaccurate sch
                                                               hedule and
      co
       ost estimate
                  es.

                                                                               Page i

                        TVA RES
                              STRICTED INF
                                         FORMATION
           Inspe
               ection 2010-13088  8 – Watts Bar Nuclear Plant
             Unnit 2 Proje
                         ect Set-Up and Ma anagement Issuess
                       Afffected Coost and S
                                           Schedule
                        EXECUTIV  VE SUMM MARY

   Pllanned primme subcontrractor agree ements we ere not implemented,
    ulttimately req
                  quiring TVA
                            A to enter in           ontracts because of
                                        nto direct co
    Be
     echtel Power Corporation’s inability to finalizze those aggreements.
   TV
     VA’s ability to remove Bechtel froom the projeect if proble
                                                               ems occurre
                                                                         ed
    wa
     as limited because
                b           Be                     an Society of Mechanical
                             echtel was tthe America
    En
     ngineers ce ertification holder.
                              h
   Co
     onstruction began beffore enginee   ering progrress had reached a
    su
     ufficient leve
                  el, causing significant productivitty and workk quality issues.

Project managem
              ment in key
                        y areas wass also ineffe
                                               ective. Spe
                                                         ecifically, TVA
manaagement did
              d not:

   Pe
     erform effec
                ctive oversight of the e
                                       engineering
                                                 g, procurem
                                                           ment, and
    co
     onstruction contractor.
   Ad
     ddress certtain warning
                           g signs thatt the projecct was in tro
                                                               ouble.
   Ad
     dequately mitigate
                m         knoown problemms related to staffing, work orderr
    pa
     ackages, timmeliness annd quality o
                                       of informatio
                                                   on providedd to the Nucclear
    Reegulatory Commission
                C           n, and the p
                                       procuremen  nt of materials that req
                                                                          quire
    a long lead tiime to obta
                            ain.

TVA recognizes
      r           the problems associa ated with the constructtion of WBN N
Unit 2 and has publicly
                p        ackknowledged d them. Forr example, on April 5,
2012, the Chief Executive Officer
                             O      and Senior Vicce Presiden nt, Nuclear
Construction, heeld a public meeting att WBN in w  which they d
                                                              discussed thhe
     ed schedule
revise          e and budg  get and facttors that caused the coost and
scheddule slippag
                ge. In addition, TVA h has taken several actio ons to addrress
the prroblems ide
                entified at WBN
                            W     Unit 2
                                       2. These acctions included:

    eveloping an
    De         a updated estimate to
                                   o complete.
   Co
     onducting an
                a extensiv ve root causse analysis to understa
                                                             and the
    un
     nderlying is
                ssues, including the de
                                      evelopmentt of correctivve actions to
    ad
     ddress the identified is
                            ssues.

In adddition, TVA
                A has taken actions to o
                                       offer an acccurate refle
                                                              ection of the
                                                                          e
progrress of the project,
                 p        eng
                            gage and immprove the relationship with the
projecct workers, and promo ote transparency. Theese include developing   g:

   Weekly
    W      proje
               ect and high
                          h-level statu
                                      us reports.
   An
     n alignment and engag
                         gement stra
                                   ategy.
   A communica
              ation plan.
                                                                           P
                                                                           Page ii

                      TVA RES
                            STRICTED INF
                                       FORMATION
            Inspe
                ection 2010-13088  8 – Watts Bar Nuclear Plant
              Unnit 2 Proje
                          ect Set-Up and Ma anagement Issuess
                        Afffected Coost and S
                                            Schedule
                         EXECUTIV  VE SUMM MARY

     Te
       eam rules.
     Other corrective actions
                             s related to improved p
                                                   productivityy, which are
                                                                          e
      planned or in
                  n process.

  In adddition, Nucllear Constrruction and TVA Corpo  orate’s corrrective actioons,
  includ
       ding a plannned review of the accu  uracy of the
                                                      e Bellefontee estimate,
  restru
       ucturing the
                  e independe  ent Project Assurance  e Organizatiion, and
  develloping a contracting sttrategy for vvarious projject classifiications are
                                                                               e
  plannned or in proogress. TVVA’s actionss are positivve and should help to
  improove the proc cess for WB BN Unit 2 a
                                          and future pprojects.

       e OIG Reco
What the        ommends

  To im
      mprove the schedule
                  s       and cost perrformance o
                                                of nuclear cconstruction
                                                                       n
  projec
       cts, we reco
                  ommend TVVA’s Nucleear Construction organnization:

     Develop a coonsistent an
                             nd thorough  h approach h for plannin
                                                                 ng and
      es
       stimating nuclear consstruction prrojects inclu
                                                     uding, but n
                                                                not limited to
                                                                             o,
      a range of es
                  stimates with probabil ities, key rissk assumptions, and
      co
       ontingency amounts.
     Develop conntingencies for supplemmenting con ntractors’ e
                                                               expertise in
      ca
       ase they arre unable to
                             o provide qu
                                        ualified reso
                                                    ources.
     Develop con
                ntingencies for obtainin
                                       ng the Ame  erican Socie
                                                              ety of
      Mechanical
      M          Engineers
                 E         certification
                           c           ns for future
                                                   e projects a
                                                              as applicablle.
     Require
      R         design engineeering to be substantiallly complete
                                                                e before
      sttarting cons
                   struction on
                              n nuclear prrojects.
     Establish controls over the develo pment and reporting oof project
       erformance
      pe         e data and provide
                             p       for independent verification of the data.
     Asssess the cultural
                  c        clim
                              mate to deteermine if the
                                                      e actions off certain forrmer
      ke
       ey managem  ment have affected the  e organizattional culturre. Additionally,
      prrovide an opportunity for
                               f WBN Un    nit 2 person
                                                      nnel to voicce their concerns
      ab
       bout the cullture that ex
                               xists curren
                                          ntly and views about w what should  d be
      do
       one to create a more transparentt culture.
     Evvaluate proj
                  oject incentives to ensu
                                         ure they willl deliver the
                                                                  e desired
      re
       esults.
     Address agin ng nuclear workforce iissues by d
                                                   developing a program for
      tra
        ansferring knowledge.
                   k          .
     Work
      W     collabooratively witth TVA’s Bo
                                          oard of Direectors to evvaluate the
      be
       enefits of re
                   etaining the
                              e services oof nuclear co
                                                      onstructionn experts to
                                                                              P
                                                                              Page iii

                        TVA RES
                              STRICTED INF
                                         FORMATION
             Inspe
                 ection 2010-13088  8 – Watts Bar Nuclear Plant
               Unnit 2 Proje
                           ect Set-Up and Ma anagement Issuess
                         Afffected Coost and S
                                             Schedule
                          EXECUTIV  VE SUMM MARY

      monitor large e nuclear co
                               onstruction projects’ p
                                                     progress and report ressults
      directly to the
                    e Board.

   We reequested and received    d written co
                                            omments fro  om Bechtell and TVA
   mana agement on  n a draft of this
                                 t    report, which are reproduced    d in their
   entire
        ety in the ap
                    ppendices. Their com   mments and our evalua     ation of them
                                                                                 m
   are discussed brriefly beloww and in mo  ore detail latter in the B
                                                                     Bechtel’s
   Respponse and TVA’s
                    T      Resp ponse sectio ons of this report.

Bechtel’’s Respons
                 se to the Draft
                           D     Reporrt

   Bechttel manage  ement disag  greed with ““several of the Draft RReport’s
   implic
        cations” and d identified conclusion ns they asse erted were not supporrted
   by thee project re
                    ecord. We carefully
                                 c         reviewed Becchtel’s com mment letterr and
   reevaaluated the report and supporting    g documenttation, and rremain
   confiddent in the report’s info
                                 ormation an  nd conclusiions; thereffore, we ma
                                                                               ade
   no chhanges to thhe report ba ased on Be  echtel’s commment letteer. Additional
   discussion of Be echtel’s commments and    d our evaluation of the
                                                                    em is includ
                                                                               ded
   in the
        e Bechtel’s Response section of tthis report. Bechtel management
   also separately
         s           provided teechnical and  d clarifying commentss that we
   evaluuated and inncorporated  d into the fin
                                              nal report, a
                                                          as appropriiate.

   See Appendix
       A        A for Bechte
                           el’s complette response
                                                 e.

TVA Man
      nagement’’s Respons
                        se to the D
                                  Draft Reporrt

   TVA manageme
         m          ent agreed with
                               w our reccommendations, and w        we concur w with
   their planned
         p         ac
                    ctions; howe
                               ever, we suuggest man  nagement consider
   additiional action
                    ns to assess
                               s the culturre at WBN U Unit 2. TVA  A also
   sugge ested a worrding changge for claritty and conssistency, wh hich has beeen
   incorpporated. Additionally, TVA provid  ded an oveerall opinionn that Bechttel’s
   respoonse to the OIG’s draftt report igno ored Bechttel’s contributions to th
                                                                               he
   projecct’s problem
                    ms.

   See Appendix
       A        B for TVA’s complete re
                                      esponse.




                                                                               P
                                                                               Page iv

                         TVA RES
                               STRICTED INF
                                          FORMATION
Office of the Inspector General                                                           Inspection Report


BACKGROUND
The Tennessee Valley Authority (TVA) began its nuclear construction in the
1960s as a new source of economical power. In 1966, TVA announced plans to
build 17 nuclear units at 7 sites in Tennessee, Alabama, and Mississippi. This
included 2 units at the Watts Bar Nuclear Plant (WBN) in Spring City, Tennessee.
By 1985, however, TVA had cancelled construction on 8 units because of a
reduction in the predicted growth of power demand and the rising construction
costs, as did other utilities around the nation. Although major structures were in
place and equipment had been installed, such as the reactor coolant system
piping, work at WBN U2 was suspended.

Eventually, the need for power again increased, and TVA restarted the nuclear
program. WBN Unit 1 received a full-power operating license in early 1996 and
is presently the last power reactor to be licensed in the United States. On
October 13, 1999, TVA filed a request for extension of the completion date for
WBN Unit 2. In July 2000, TVA informed the Nuclear Regulatory Commission
(NRC)1 that Unit 2 met the NRC’s definition for deferred nuclear plant units, as
described in the NRC’s Policy Statement on Deferred Plants. Currently operating
nuclear power plants have been licensed under a two-step process described in
Title 10 of the Code of Federal Regulations, Part 50. This process requires both
a construction permit and an operating license. Subsequently, on October 24,
2000, the NRC issued an order extending the Unit 2 construction permit to
December 31, 2010.

During the nuclear restart effort in May 2002, TVA’s Board of Directors approved
the restart of Browns Ferry Nuclear Plant (BFN) Unit 1 at an estimated cost of
$1.8 billion over a 5-year period. After an extensive recovery effort, BFN Unit 1
was restarted in May 2007, adding approximately 1,150 megawatts of cost-
effective, emission-free generation to help TVA responsibly meet power demands
while maintaining a strong reserve margin and becoming the nation’s first nuclear
unit to come online in the twenty-first century.




1
    The NRC is responsible for licensing and regulating the operation of commercial nuclear power plants in
    the United States. NRC approval is necessary before a nuclear power plant can be built and operated.
    The NRC maintains oversight of the construction and operation of a facility throughout its lifetime to
    ensure compliance with NRC regulations for the protection of public health and safety, common defense
    and security, and the environment. The approval process includes public hearings, environmental
    impact reviews, and safety reviews.
Inspection 2010-13088                                                                                Page 1

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                            Inspection Report


Completion of WBN Unit 2
On November 14, 2006, TVA informed the NRC of its intent to perform a study of
the feasibility of completing WBN Unit 2 with the goal of producing power from
the reactor in 2013. In December 2006, TVA contracted with Bechtel Power
Corporation to perform a 6-month Detailed Scoping, Estimating, and Planning
(DSEP) study to develop the project scope. The DSEP process allocated the
estimated cost by year and explored three options: 48-, 54-, and 60-month plans
to completion.

    The 48-month option had an estimated cost of $2.35 billion and required a
     highly aggressive engineering ramp rate. Under this scenario, peak staffing
     levels could possibly go beyond what the industry would supply at reasonable
     rates.
    The 54-month option had an estimated cost of $2.45 billion and required a
     reasonably achievable engineering ramp rate (similar to that used during the
     BFN Unit 1 Restart). Under this scenario, peak staffing levels for the 54-month
     schedule would be approximately 12 percent higher than the 60-month
     schedule.
    The 60-month option had an estimated cost of $2.49 billion and also required
     a reasonably achievable engineering ramp rate (similar to what was used
     during the BFN Unit 1 Restart). Peak staffing levels would also be reasonably
     achievable and similar to BFN Unit 1 Restart.

In August 2007, the TVA Board unanimously approved the construction of WBN
Unit 2 at the DSEP estimated cost of $2.49 billion2 for a 60-month project. When
completed, WBN Unit 2 will provide approximately 1,200 megawatts of electricity,
or enough power to serve about 650,000 Tennessee Valley homes.

On August 29, 2007, TVA issued a revision to the DSEP with an addendum that
included a 54-month alternative schedule instead of the 60-month schedule as
approved. This 54-month target completion became the driver of the project’s
schedule.

On July 7, 2008, the NRC issued an order extending the WBN Unit 2 construction
permit completion date to March 31, 2013.

The BFN Unit 1 Restart project was performed under separate contracts for
engineering design services and construction modifications, while TVA managed
procurement. Operating two units while reconstructing another unit at BFN
created challenges related to the use of resources, coordination of activities, and
available facilities. As a result of these challenges, TVA established the NGDC
organization to manage all aspects of the new WBN Unit 2 project, up to the
completion of hot functional testing.3
2
    As discussed on page 6 of this report, a range of cost estimates is more appropriate because of the
    complexities and risks associated with a nuclear construction project.
3
    Hot functional testing tests the reactor coolant system at a temperature and pressure at which the
    nominal design parameters are at zero-power criticality.
Inspection 2010-13088                                                                                Page 2

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                            Inspection Report


For the WBN Unit 2 project, TVA decided to award an Engineering, Procurement,
and Construction (EPC) contract. On October 19, 2007, TVA entered into a
$1 billion EPC contract4 with Bechtel for completion of WBN Unit 2. A former Site
Vice President (VP) for the BFN Unit 1 Restart was assigned to oversee the
WBN Unit 2 project. He served as Site VP until February 2011. His replacement
served from February 2011 until February 2012, when a General Manager, WBN
Unit 2, Technical Services, and a General Manager, WBN Unit 2, Engineering
and Construction, were named to lead the project. For the purposes of this
report, the Site VPs will be referred to as the original and second (Site VP, WBN
Unit 2). There has also been a change in the Senior Vice President (SVP),
Nuclear Generation Development and Construction (NGDC).5 In October 2011,
the SVP, NGDC, retired and a replacement was named. For the purposes of this
report the SVPs will be referred to as the former and existing (SVP, NGDC).

Since the project began, the Office of Inspector General (OIG) has had staff
assigned to WBN Unit 2 in order to keep abreast of management challenges as
the OIG conducts its various reviews.6 During meetings attended by the OIG at
the WBN Unit 2 project site, construction issues discussed were characterized by
management as recoverable or normal construction problems. Each project
schedule, based on its associated assumptions, showed how everything was on
track for meeting the early target finish date. Additionally, pertinent information
critical of the project’s performance was not provided to the OIG by TVA when
requested by our office. These actions made it harder to identify the extent and
potential consequences of the problems on the project. In 2010, it became
evident that many of the issues raised in those meetings were symptomatic of
much broader problems that could increase the risk of exceeding the project’s
schedule and budget.



4
    Additional contracts for the completion of WBN Unit 2 included Westinghouse Electric Company,
    Siemens, and Day and Zimmermann. Westinghouse was included for (1) upgrading and replacing most
    instrumentation and control systems; (2) supplying new reactor coolant pumps and cranes; and
    (3) servicing steam generators and conducting probabilistic risk assessments, licensing services, and
    safety analyses. Siemens was included for (1) refurbishing and upgrading the turbine island and
    (2) supplying one new high-pressure turbine and three new low-pressure turbine rotors. Day and
    Zimmermann was included for providing managed task, maintenance, modification, and refurbishment
    services, including the replacement, refurbishment, modification, and installation of major components in
    the plant’s turbine building.
5
    As of February 10, 2012, NGDC became known as Nuclear Construction.
6
    These reviews include: Inspection 2007-11443 – Review of Contractor Background Checks Applicable
    to the Watts Bar Nuclear Plant Unit 2 Construction Project; Inspection 2008-11591 – Review of
    Contractor Qualifications for Bechtel Employees Assigned to the Watts Bar Nuclear Plant Unit 2
    Construction Completion Project; Inspection 2008-11874 – Review of Bechtel’s Cost Accounting
    Activities for the Watts Bar Nuclear Plant Unit 2 Construction Completion Project; Inspection 2008-11899
    – Review of Material Ordered by Bechtel Construction; Inspection 2008-11911 – Review of the
    Contractor Tool Program for the Watts Bar Nuclear Plant Unit 2 Construction Project; Audit 2009-12916
    – Review of Bechtel’s Management of Subcontractors for the Watts Bar Nuclear Plant Unit 2
    Construction Project; Audit 2009-12968 – Follow-up Review of Contractor Tool Program for Watts Bar
    Nuclear Plant Unit 2 Construction Project; Audit 2010-13143 – Rework at Watts Bar Nuclear Unit 2; and
    Audit 2010-13264 – Review of the Effectiveness of the Remediation of Problem Evaluation Reports at
    Watts Bar Nuclear Plant Unit 2.
Inspection 2010-13088                                                                                 Page 3

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                      Inspection Report


We began this review in order to report on the status of the project and the issues
that could put the schedule and budget at risk. However, during our review, it
became clear that risks to the schedule and budget had become a reality, and the
project would not meet schedule and was over budget. Our focus then was to
review the project schedule and cost performance and note any weaknesses in
the project’s set-up and management.

OBJECTIVE, SCOPE, AND METHODOLOGY
We conducted this review to (1) assess TVA’s schedule and cost performance
on this project and (2) identify any weaknesses in the project’s set up and
management and recommend actions to improve schedule and cost performance
on this and future projects. We reviewed the schedule and cost performance at
WBN Unit 2. The scope of our review was October 2007 through February 10,
2012. Specifically, we:

   Obtained and reviewed various (1) WBN Unit 2 reports, including Plan of the
    Day packages, weekly update reports, and management review packages,
    and (2) TVA reports, presentations, and other documentation to determine the
    current status of the project’s budget and schedule and any other issues that
    might be relevant to schedule and budget performance.
   Interviewed (1) WBN Unit 2 personnel, (2) WBN Unit 2 contractor personnel
    (Bechtel, Day and Zimmerman, and Westinghouse), (3) NGDC personnel,
    (4) other current and former TVA personnel, and (5) TVA’s external
    consultants to obtain an understanding of the status of the project.

This review was conducted in accordance with the Quality Standards for
Inspections.

FINDINGS
As TVA officials publically stated on April 5, 2012, the schedule and cost targets
for completing WBN Unit 2 will not be met. We identified two of the primary
reasons for the schedule and cost overruns were (1) deficiencies in project set up
and (2) ineffective management oversight. In mid-2011, we met with TVA
executives to brief them on our concerns surrounding the project. On August 3,
2011, we met with TVA’s Audit, Risk, and Regulation Committee to advise them
of our findings. In addition, we noted that TVA has taken several actions to
address the problems identified at WBN Unit 2. Key actions include developing
an updated Estimate to Complete (ETC) and conducting an extensive root cause
analysis to understand the underlying issues, including the development of
corrective actions to address the identified issues.




Inspection 2010-13088                                                          Page 4

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                         Inspection Report


SCHEDULE AND COST GOALS WILL NOT BE MET
The WBN Unit 2 construction project experienced significant schedule and cost
overruns. The project was originally expected to be completed in October 2012
at a cost of just under $2.5 billion. However, TVA will not meet these targets. On
April 5, 2012, TVA announced an additional $1.5 billion to $2 billion would be
required to complete the project with an estimated time of completion between
September and December 2015. TVA’s Board of Directors approved the revised
schedule and budget on April 26, 2012. TVA’s fiscal year (FY) 2012 10-Q filing
on February 3, 2012, stated the project was “. . . experiencing challenges with
schedule and costs.” TVA attributed these challenges to lower productivity
slowing the pace of construction and expected increased costs due to regulatory
considerations from the NRC related to the Fukushima event in March 2011.

Although there can be many reasons for a project not meeting its schedule and
budget, we identified two primary factors that have had an impact on TVA’s ability
to meet schedule and budget. First, decisions made during the set-up of the
project negatively impacted the project’s progress. Second, ineffective
management oversight created other problems that the project could not
overcome. Going forward, changes required because of the Fukushima nuclear
event could impact the project. What, if any, changes will be required is not
known at this time.

In mid-2011, we met with TVA executives to brief them on our concerns
surrounding the project. In August 2011, we briefed the Audit, Risk, and
Regulation Committee on our concerns and the preliminary findings of this report.

PROJECT SET-UP PROBLEMS IMPACTED THE COMPLETION
OF WBN UNIT 2
Front-end planning is an essential process of developing sufficient, strategic
information with which owners can address risks and make decisions to commit
resources in order to maximize the potential for a successful project. However,
several problems developed with how the project was planned and eventually
executed. Specifically,

   The DSEP study was not as in-depth as it should have been.
   Inability to implement prime subcontractors’ agreements contributed to project
    delays.
   Bechtel was the American Society of Mechanical Engineers (ASME)
    certification holder, limiting TVA’s ability to remove them from the project if
    problems occurred.
   Construction began before adequate engineering had been completed.



Inspection 2010-13088                                                             Page 5

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                        Inspection Report


DSEP Was Not Sufficiently Thorough to Develop Accurate Estimates
For engineering and construction projects, accurate early cost estimates are
extremely important to the sponsoring organization and the engineering team.
For the sponsoring organization, early cost estimates are often a basis for
business unit decisions. In June 2005, TVA published a study on the cost of
finishing construction on WBN Unit 2. This 2005 study was simply a 1994 study
escalated to 2005 dollars. At the time of the 2005 study, the estimated cost for
completion was $2.182 billion. In December 2006, TVA contracted with Bechtel
to perform a DSEP on the WBN Unit 2. The DSEP Summary Report was issued
on July 30, 2007, and estimated a 60-month schedule at a cost of $2.49 billion.
This estimate included a management contingency of approximately 6 percent.
However, several occurrences point to the DSEP not being as detailed as it
should have been to fully estimate the work needed to complete the unit.
According to some TVA nuclear personnel, the original Site VP, WBN Unit 2,
decided to halt the DSEP in May 2007 before walkdowns had been completed.
The original Site VP, WBN Unit 2, felt that enough work had been done to present
the project to the Board. This lack of detail was pointed out in NGDC’s
February 7, 2012, presentation to the Board’s Nuclear Oversight Committee
(a standing committee of TVA’s Board of Directors), which stated that an “. . .
inadequate understanding of the work to be done led to low initial estimates and
impeded planning.” Specifically, “The DSEP was developed using conceptual
data, unit rates from BFN Unit 1 did not account for the complexity of the work,
contingency was well below industry standard, and risk ranging did not conform to
TVA standards.”

According to the existing SVP, NGDC, the new ETC will contain a range of cost
estimates instead of a point estimate as was originally done for WBN Unit 2.
A project of the complexity of WBN Unit 2 had too many risks and unknowns to
offer a single point estimate. According to McKinsey and Company,7 the
variance between the low and high estimates in the range is dependent on the
amount of work done to determine the estimate. Based on the amount of work
performed on the estimate, McKinsey personnel stated that the contingency for
the WBN Unit 2 project should have been higher than the contingency used.

Planned Prime Subcontractor Agreements Were Not Implemented
The Bechtel proposal stated:

     In order to provide all the resources and the nuclear infrastructure for
     a project of this magnitude, Bechtel will supplement its substantial
     experience with the professional resources of Washington Group
     International, Sargent & Lundy, and Areva.




7
    McKinsey and Company was tasked with evaluating the root cause analysis performed by TVA to identify
    any gaps or weaknesses.
Inspection 2010-13088                                                                            Page 6

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                         Inspection Report


    The combination of these companies creates the ability to offer:

        Depth and breadth of a dedicated team of highly qualified
         professionals who are experienced in all the relevant areas necessary
         for the Watts Bar Completion Project.
        Effective mobilization of the necessary resources during the critical
         early stages of the project.
        A Supply Chain management team with global alliances for cost
         savings in procurement.
        A Qualified nuclear craft supervision, workable craft labor plan, and
         labor relations expert.

When Bechtel was awarded the EPC in October 2007, its contract included
supplementing its team with Washington Group International and Sargent & Lundy.
However, by June 2008, TVA was questioning Bechtel on its failure to procure the
prime subcontractors. Even though Bechtel identified the prime subcontractor
agreements as critical to the project, those agreements were never implemented.
In its September 10, 2008, response to TVA, Bechtel cited the subcontractors’
refusal “. . . to accept reasonable terms for liability, warranty, fee and other Prime
Contract flowdown issues . . .” required by the prime contract as the reason the
agreements were not finalized.

In September 2009, TVA took approximately 25 percent of Bechtel’s scope of
work and awarded it to another construction company. TVA also directly
contracted with three additional engineering firms to help meet a milestone for
completion of design engineering. However, even with the additional resources,
design engineering was completed about 9 months later than originally planned.

Bechtel Was the ASME Certification Holder, Which Limited TVA’s Ability to
Remove Them From the Project if Problems Occurred
Title 10 of the Code of Federal Regulations requires nuclear plants to be built in
accordance with the ASME Boiler and Pressure Vessel Code, Section III. ASME
is the leading international developer of codes and standards associated with the
art, science, and practice of mechanical engineering. ASME conformity
assessment programs assess and certify that an individual or company
demonstrates the ability to meet the requirements of an ASME standard. The
ASME “N-stamp” indicates that items stamped comply with the Quality
Assurance (QA) Requirements of Section III.

The WBN Unit 2 contract required Bechtel to obtain and maintain the appropriate
N-stamp certifications and authorization. Part of the application process requires
a review of the applicant’s QA program and its implementation. This review, or
survey, is conducted by an ASME survey team. Any findings are discussed
between the team and applicant, and a report is submitted to the ASME
Committee on Nuclear Certification, which either issues the Certificate(s) of
Authorization or requests additional action by the applicant. According to Bechtel
Inspection 2010-13088                                                             Page 7

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                            Inspection Report


personnel, the survey requires demonstration of implementation of the QA
manual.

In March 2008, a schedule showed ASME approval would occur in early
August 2008. However, according to WBN Unit 2 Bechtel management, Bechtel’s
submittal for the N-stamp survey occurred in August 2008. In March 2009,
6 months after the estimated ASME approval date, the ASME survey team
performed the required survey on the QA program at WBN Unit 2. This survey
determined that the requirements had not been met and remediations were
needed. This resulted in a follow-up ASME audit in October 2009 to determine if
the deficiencies had been corrected. Bechtel was finally awarded the stamp on
December 7, 2009, with an authorization period from November 27, 2009, through
November 27, 2012. The delay in obtaining ASME approval caused inefficiencies
and problems in determining if existing ASME valves could be repaired or needed
to be replaced. However, according to the existing SVP, NGDC, problems with
Bechtel obtaining the ASME stamp did not cause any delays in the overall project
schedule.

Bechtel was the sole ASME stamp holder, limiting TVA’s ability to remove them
from the project if problems occurred. Over a year passed from the original
scheduled completion date until Bechtel was awarded the stamp. The ASME
stamp is not transferable; another organization would have had to go through the
complete process to obtain a stamp for the project. Once the decision was made
to make Bechtel the stamp holder, Bechtel became essential to the project. TVA
could not completely remove Bechtel from the project if problems occurred
without greatly increasing the project schedule.

Starting Construction Without Adequate Engineering Progress Impacted
Work Planning and Productivity
Normally, design engineering should be well underway before construction
activities begin. To shorten the project, TVA decided to start construction prior to
engineering being sufficiently complete. Once engineering completes the design
package, the work is sent to work planners who take the design specifications
and complete work order packages.8 The work order packages provide the
detailed instructions for construction to complete the physical work.

The August 29, 2007, revision to the DSEP stated:

     Prior to the start of the detailed engineering sequence, walkdowns will be
     performed to provide as-built information to be used as design input.
     These have also been sequenced in support of the implementation plan.
     After Engineering evaluates the walkdown data and issues the appropriate
     design output, Construction will plan in detail the work implementation

8
    A work order package consists of work order forms, a description of work to be performed, and all written
    instructions and/or plant-approved instructions necessary for performance and documenting work. It
    may contain information from controlled manuals, controlled drawings, approved field change requests,
    work plans, approved design documents, or plant approved instructions.
Inspection 2010-13088                                                                                 Page 8

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                          Inspection Report


     activities, with the plan of utilizing the scaffold and any other temporary
     commodities that were installed for the walkdowns. The system
     completion sequence and work volume will determine the order in which
     areas must be worked to support the schedule. The plan is to optimize
     opportunities for the work scope related to a particular area to be
     performed in a single time frame. In this manner schedule gains can be
     obtained through effective use of resources and eliminating the need to
     install/remove temporary support commodities more than once.

Design engineering is required for construction to be able to do physical work;
otherwise, construction delays occur. However, starting construction without
adequate engineering progress prevented the development of an adequate
backlog of work order packages. This resulted in construction delays that the
project was unable to overcome.

INEFFECTIVE TVA MANAGEMENT OVERSIGHT
Many of the decisions made during the project set-up caused delays and
problems, but the project also suffered from ineffective management oversight.
TVA management failed to respond to red flags and was unsuccessful in fixing
problems, while the communication upward within TVA continued to indicate that
the project was on time and on budget. Management actions interpreted as
retribution by some who raised concerns related to schedule and budget;
restricting access of those charged with performing independent assessments of
the status of the project; and the rigid command and control management style
exhibited by the original Site VP, WBN Unit 2, and the former SVP, NGDC, are
hostile to transparency and tend to inhibit a free flow of information necessary to
accurately assess the current status of a mega project, such as this one. These
leadership failures contributed to poor communication, delaying remediation of the
problems encountered and driving the costs of the project much higher due to
delayed discovery of systemic problems. The collateral damage is the corrosive
effect on TVA’s culture caused by a “hide-the-ball” mentality of these two
managers that had a chilling effect on WBN Unit 2 personnel exposed to this
dysfunctional leadership style.

On February 5, 2007, the NRC issued a report to Congress that addressed
existing and alternative programs for improving quality and QA in the design and
construction of commercial nuclear power plants.9 The NRC report concluded
that the root causes for major quality-related problems included the following:

    Utility management’s inability to adequately control all aspects of the
     construction project, including planning, scheduling, procurement, and
     oversight of contractors.



9
    Improving Quality and the Assurance of Quality in the Design and Construction of Nuclear Power Plants:
    A Report to Congress (NUREG-1055), NRC, February 5, 2007.
Inspection 2010-13088                                                                              Page 9

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                        Inspection Report


   Inexperience with nuclear plant construction, resulting in utilities and their
    contractors not fully appreciating the complexity and difficulty associated with
    building a nuclear power plant and therefore the importance of nuclear-related
    standards.
   A false sense of security growing out of prior successes.

The report also noted that the failure of management to control certain
conditions, such as the amount of rework because of excessive design changes,
the failure to complete designs sufficiently ahead of construction, uninformed
supervision, and a project environment that emphasizes production to the
detriment of quality, can defeat quality craftsmanship.

As noted on the following page, many of the issues identified by the NRC report
occurred on this project. The project suffered from several management and
oversight weaknesses that contributed to the schedule delays and cost overruns.
As a result, key improvements that could have had a significant impact on the
project did not occur.

Project Oversight Was Not Performed as Intended
The intent was for Bechtel to manage the project and TVA to provide oversight.
The contract was written for the contractor to have primary responsibility for the
work performed. Specifically, the contractor was to “. . . provide professional
engineering, procurement, construction and related services (such as QA, Quality
Control [QC], and maintenance and modifications work).” The contract also called
for the contractor to “. . . manage the project control function for the completion of
WBNII and supply project control personnel.” TVA would provide project control
personnel to oversee the contractor and to help integrate WBN Unit 2 with Unit 1.

However, instead of providing oversight, WBN Unit 2 management became
involved in day-to-day project management and decision-making. Specifically,
the original Site VP, WBN Unit 2, made virtually every decision down to reviewing
résumés for noncraft positions, reviewing most purchase orders, and controlling
information. The OIG personnel assigned to the project noted that it was obvious
the original Site VP, WBN Unit 2, was in charge, regardless of what the intended
structure might have been.

An outside consultant hired by TVA to conduct assessments at WBN Unit 2
even stated they had never seen one individual (i.e., the original Site VP,
WBN Unit 2) have so much control over a project this size. The concern about
TVA site management’s role in the project was also raised in a February 2010
NGDC internal assessment that was drafted but never finalized at the former
SVP, NGDC’s, direction. The assessment team found that “TVA management is
directly involved in the day-to-day management and decision-making of the
project with respect to production, budget, and cost. This heavy managerial
involvement resulted in little to no effective oversight of the EPC and major
contractors involved.”

Inspection 2010-13088                                                          Page 10

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                        Inspection Report


When conflict arose between TVA and Bechtel over performance issues, Bechtel
asserted that the level of TVA site management involvement in daily management
was a contributing factor. In a December 22, 2010, letter to TVA, Bechtel stated:

    We note that your referenced letters fail to recognize TVA Management’s
    involvement on this project and the impacts that they have contributed and
    continue to contribute towards Bechtel’s performance. If TVA believes
    that the project is staffed with people who have inadequate expertise and
    experience, TVA must also share the responsibility for this condition.
    Essentially, all construction nonmanual staffing assignments are vetted
    and pre-approved by TVA. The hiring policies imposed on Bechtel by TVA
    have resulted in a construction team made up of 52% agency employees.
    For senior level staff (Grade 25 and above), the percentage of agency
    employees increases to 56%. Approximately 50% of our agency
    employees are TVA retirees or have worked for TVA in the past and WBN
    Unit 2 TVA Management was influential in their hire. Otherwise stated,
    our experience and expertise in the construction staff is as allowed by
    TVA.

Since TVA was only to provide oversight as called for in the contract, the team
established for WBN Unit 2 was small. From the start of the project, about
15 TVA employees were tasked with oversight. In early January 2011, nearly
3,500 employees and contractors were on the project, making it difficult for the
15 TVA individuals to provide effective oversight and nearly impossible for them to
make quality day-to-day management decisions. Instead, the project team was
forced to “run from one fire to the next” and never provided effective oversight.

Lack of oversight did not stop at the site level. It is incumbent on senior
management to be knowledgeable of large projects like WBN Unit 2 and make
any changes they deem necessary to keep the project on track. As the head of
NGDC, the SVP was responsible for monitoring the progress of nuclear
construction projects, with an attitude of “trust but verify.” However, according to
TVA personnel, the former SVP, NGDC, ignored data and opinions of the
oversight team and others in favor of what the original Site VP, WBN Unit 2, told
him. The General Manager, NGDC Oversight, noted in an e-mail to the former
SVP, NGDC, “We have two standards for oversight on NGDC projects – one for
WBN2 and one for all other projects.”

Certain Warning Signs Were Not Adequately Addressed
There were indications of problems in the project’s early stages. A time line of
key project events makes it hard to reconcile the continued problems with the
continued message of on time and on budget. Also, assessments that
documented problems were not addressed. Although it is not clear how high up
in the organization problems were being communicated, the following time line
documents problems with the project dating back to January 2008.

   In January 2008, 3 months into the project, TVA and Bechtel held a meeting
    to discuss performance issues.
Inspection 2010-13088                                                          Page 11

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                        Inspection Report


   In June 2008, TVA wrote in a letter to Bechtel that Bechtel’s compliance with
    key contract requirements was not meeting TVA’s expectations.
   On June 22, 2009, Bechtel submitted a recovery plan for the project schedule.
   The February 2010 NGDC draft internal assessment found the project was
    3 to 5 months behind the internal 54-month schedule.
   The March 2010 NGDC internal assessment stated the 54-month schedule
    was being challenged by poor EPC coordination of the project from
    engineering to work planning to construction activity, as well as insufficient
    resources.
   In a July 2010 letter to Bechtel, TVA stated that without substantial
    performance improvement, even a 60-month schedule would be at risk.
   The July 29, 2010, WBN Unit 2 weekly status report stated the internal
    54-month schedule might be at risk by 60 days.
   On December 9, 2010, TVA issued a letter to Bechtel stating that despite
    multiple letters, Bechtel’s performance continued to be unsatisfactory to TVA.
   In the February 4, 2011, WBN Unit 2 executive meeting, the new Bechtel
    project manager reported the project did not have a schedule.
   The March 4, 2011, WBN Unit 2 Executive Package stated that without
    change, the project would be $97 million over budget, and using current
    methodology, the 60-month schedule was in jeopardy.
   On May 20, 2011, the former Senior Manager, WBN Unit 2, Project Control,
    estimated the project to be $200 million over budget.

Despite all these indications of schedule and cost performance problems, project
and NGDC management continued to characterize the project as on time and on
budget. It was not until June 2011 that it was acknowledged the project would not
be completed on schedule and within budget. These acknowledgments, which
occurred after the OIG briefed executives on its concerns, were made at an NRC
public meeting on June 20, 2011, and at the Nuclear Oversight Committee on
June 23, 2011.

Internal Assessments Indicating Performance Problems Were Not Addressed
To help monitor and assess the project’s progress, the NGDC Project Assurance
Process was put in place. The procedure states, “This process provides for an
independent overall assessment of approved NGDC projects during construction
and transition to operation phases to assure that specific and programmatic
processes are reviewed, deficiencies are identified and addressed and NGDC
Project goals are achieved.”

In October 2009, Bechtel issued a revised schedule (Revision [Rev] 1) for the
WBN Unit 2 project. The Rev 1 schedule was intended to provide an updated
schedule based on work completed, performance to date, and scope changes.
In early 2010, an internal team, led by NGDC’s QA team, completed a Rev 1
Inspection 2010-13088                                                          Page 12

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                       Inspection Report


schedule assessment. The report, done in accordance with procedure NGDC
SPP-33.05, Project Assurance Process,10 offered a number of criticisms,
concerns, and risks about the project. Specifically, the report stated (1) the
project was at considerable risk of not meeting the 54-month target schedule and
(2) overall risk factors without mitigating efforts could adversely impact fuel load
by 3 to 5 months. Moreover, the report noted the following:

     Current productivity had not kept pace with the Rev 1 schedule requirements
      since its initiation nearly 4 months before.
    Production of actual versus planned work had improved but consistently had
     not met the goal. Concerns existed over obtaining the resources and
     productivity to reach the greater than 30,000 man-hours/week goals in the
     near future.
    Based on late completion of engineering design, work planning problems, not
     meeting targeted craft resources, procurement risks, and the like, the current
     schedule to support fuel loading by October 2011 was at major risk.

According to NGDC personnel who prepared the report, the assessment by the
oversight team was presented to the original Site VP, WBN Unit 2, in
February 2010. Before even seeing the report, the former SVP, NGDC, informed
the oversight team presenter that this report was not the way to perform
oversight. The former SVP, NGDC, was later presented a copy of the report but
subsequently ordered the team to change the approach and perform a different
type of review. In spite of credible evidence to the contrary, the former SVP,
NGDC, believed only the original Site VP, WBN Unit 2, when the original Site VP
continued to say he could make the internal 54-month schedule.

In March 2010, the internal NGDC team completed a data review of the Rev 1
WBN Unit 2 schedule, work-off curves, procurement, planning, engineering, and
construction work data. The report identified three areas for improvement:

     The 54-month completion schedule is being challenged by poor EPC
      coordination of the project from engineering to work planning to construction
      activity, as well as insufficient resources.
     The WBN Unit 2 completion project appears to have shifted from an EPC-
      directed project to a TVA-managed project.
     The alignment between WBN Unit 1 and NGDC does not appear robust
      enough to effectively support WBN Unit 1 outage requirements and the WBN
      Unit 2 construction schedule.




10
     At the time of the assessment, SPP-33.05 was in draft. The SPP (Standard Programs and Processes)
     was finalized in February 2010 but was canceled and superseded by SPP 34.05 in July 2010.
Inspection 2010-13088                                                                          Page 13

                                   TVA RESTRICTED INFORMATION
Office of the Inspector General                                       Inspection Report


In response to the report, the former SVP, NGDC, sent an e-mail to the author
criticizing the report for being too broad in scope and not in line with what he
wanted. The e-mail stated, “Had a chance to review. Not what we discussed.
I asked us to focus on hanger work to give us insights into a larger issue. We are
again focused on broad themes. This will not help the site. Right now the only
scope I want is AFI number 1 with a focus on hangers. If there is value we will
move to AFIs 2/3.” This report, like the February 2010 report, was never finalized
or formally published. In March 2010, a report was generated and later issued
addressing only the hangers. In addition, at the direction of the former SVP,
NGDC, it was addressed to Bechtel and not to the project.

Neither the February nor March 2010 reports, each of which contained credible
evidence of schedule and cost performance problems at WBN Unit 2, was used
by project or NGDC management as a basis for responding to issues. Moreover,
some team members who drafted the reports and disagreed with management’s
message believe their careers were adversely affected. Further, on February 15,
2011, the OIG’s Assistant Inspector General, Audits and Inspections, requested
from the former SVP, NGDC, copies of all draft and final (1) internal assessments
of WBN Unit 2 conducted by NGDC and (2) external assessments of WBN Unit 2
conducted by third parties or other TVA organizations. The OIG was not provided
either the February or March 2010 internal assessments, which the former SVP,
NGDC, later attributed to an “oversight.”

At this point an appropriate question might be, “Why were the problems not more
obvious?” As discussed in the next section of this report, several things helped
mask the issues with the project.

Documentation Obscured Project Performance
Looking back at the history of the project, project data made it possible to believe
the project was performing better than it actually was. This ranged from
increasing resource levels in updated schedules to make up for past delays, to
excluding historical data from progress charts, to paying the EPC contractor for
meeting multiple milestones. A cursory review of project data matched up with
the on-budget and on-schedule message that was communicated, but a detailed
look at the data should have raised questions, such as the following:

   Is historical data being ignored?
   Is a craft level of 2,500 feasible?
   Were the milestones chosen appropriate and indicative of overall project
    performance?

Each time a new schedule was issued, everything appeared to be on track,
regardless of how poorly the project had performed or what problems were
unresolved. In essence, with each new schedule the project was reforecasted to
achieve the target completion, even though time had passed and significant
amounts of work were pushed forward. The following details show how changes
Inspection 2010-13088                                                         Page 14

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                        Inspection Report


to the schedule obscured project performance each time the project was
reforecast.

   In June 2008, the first schedule (Rev 0) was published. By September 2009,
    the project was 1.29 million hours behind the Rev 0 schedule.
   In October 2009, a revised schedule (Rev 1) was approved. By October 2010,
    the project was approximately 286,000 hours behind the Rev 1 schedule.
    However, the October 28, 2010, WBN Unit 2 weekly status report stated the
    “. . . overall project is on schedule to complete in 54 months . . .,” 6 months
    ahead of the Board-approved schedule.
   In November 2010, the Rev 1 Estimate at Completion was issued. By
    February 2011, the project was approximately 273,000 hours behind the Rev
    1 Estimate at Completion. However, the February 24, 2011, WBN Unit 2
    weekly status report stated the “. . . overall project is three months behind the
    54-month schedule . . .,” which was 3 months ahead of the Board-approved
    schedule.

As noted above, the project was behind at each forecast. Each time a schedule
revision was issued, hours not completed from the prior schedule were included
in the new forecast. This resulted in more work to be done in a shorter period of
time in order to meet the target completion. This also made the project’s
historical performance easier to overlook.

There was also a trend of changes in the packages during the WBN Unit 2
meetings. Once again, history had a way of changing or being ignored in favor of
looking forward. For example:

   A chart from the Monthly Management Review package issued May 1, 2009,
    showed the project was not meeting the planned schedule. However, the
    Monthly Management Review package issued November 6, 2009, showed
    the updated Rev 1 chart did not include the project’s history. Without the
    schedule history, continued poor performance could take longer to identify.
   A chart from the Monthly Management Review package issued October 8,
    2010, showed the project was not meeting the planned hours. However, the
    Monthly Management Review package issued December 3, 2010, showed
    the updated chart represented only the actual hours completed and did not
    include the planned hours. This made it difficult for anyone to identify past
    trends.

Another way the project continued to show on track, even while not meeting the
schedule, was with resource levels. According to Bechtel personnel, the original
craft staffing peak was determined to be between 1,600 and 1,800 during DSEP.
TVA said this level was too high, so changes were made, and the number was
reduced to 1,200. However, by Rev 0, the estimated peak craft had increased to
about 1,500; by Rev 1, the estimated peak had reached almost 2,500.

Inspection 2010-13088                                                          Page 15

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                       Inspection Report


Finally, meeting milestones painted a picture that the schedule was being met.
The justification for a milestone measure was to support the goal of meeting or
exceeding the work schedule goals for the FY based on work planned to achieve
the schedule plan or to better the scheduled plan (compared to DSEP). Each
year, TVA and Bechtel worked to set goals for the upcoming year. The goals
were to represent completion of major pieces of work that indicated the project
was on schedule. Not only did Bechtel have incentives tied to the milestones,
but NGDC personnel had a portion of their Winning Performance bonus money
tied to the same milestones. In addition, NGDC normally had a limited number of
milestones tied to other projects. Table 1 lays out the milestone information for
Bechtel for FYs 2008 to 2010.

                          Bechtel Milestone Data, FYs 2008-2010
              Year                    Number of Milestones     Number Achieved
             FY 2008                          20                     18
             FY 2009                          18                     17
             FY 2010                          28                     21
                                                                            Table 1

If the milestones had been a good barometer of the project schedule, it would
have been easy to develop the impression that the project was progressing well;
however, that was not the case. As indicated above, during essentially the first
2 years of the project, the project was 1.29 million hours behind schedule but
completed 35 of 38 milestones. The next year, the project was approximately
286,000 hours behind schedule, but Bechtel met 21 of 28 milestones. Over the
first 3 years of the project, Bechtel was behind the craft work-off curves but was
paid more than $8.5 million in milestone performance fees. In looking back, it is
obvious the milestones did not represent the full body of work that needed to be
completed to remain on schedule.

Review Done by an External Party Had the Scope Limited
In August 2010, the former SVP, NGDC, hired an outside consultant to perform a
risk assessment of the WBN Unit 2 project. During the consultant’s first trip to
WBN, the team met with the original Site VP, WBN Unit 2, to explain their
approach and scope of work. According to one of the team members, the
original Site VP, WBN Unit 2, basically told the team to get off the site. The
original Site VP, WBN Unit 2, wanted the scope limited to six specific systems,
although the consultant’s intent was to look at the entire project.

The consulting team discussed the issue with the former SVP, NGDC, and
reluctantly agreed to a reduced scope that included only the primary systems.
Even with the limited scope, the consultants had problems getting access to
information. As part of their work on primary systems, they wanted to test work
order packages but were not given permission to do so. According to consulting
personnel, the original Site VP, WBN Unit 2, limited their access to the site,
people, and data during the review. In fact, the consulting report was based on
November project data, which was not the most recent data. The original Site VP,
WBN Unit 2, would not give the consulting team access to the information in order
Inspection 2010-13088                                                         Page 16

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                          Inspection Report


for them to report on the latest data. The consultant notified the former SVP,
NGDC, of this problem, but he did nothing to address the situation. Instead, the
former SVP, NGDC, told the consultant to come back in April 2011 and perform a
quarterly update.

Known Problems Were Not Adequately Mitigated
Throughout the project, problems that were identified were not successfully
mitigated. These unresolved problems ranged from staffing issues to work order
problems. Recently, there has been a concerted effort to resolve these legacy
problems and improve performance. For example, WBN Unit 2 has conducted
more than 2,000 walkdowns in order to verify the work that was completed and
determine what work needs to be done.

Staffing Shortages
Even under normal conditions, finding qualified personnel can be difficult.
However, because no nuclear construction had taken place for almost 3 decades,
many experienced people were no longer available. The project experienced
shortages of certain positions, such as welders, the Procurement Engineering
Group (PEG), field engineering, and QC personnel. Inadequate experience and
expertise on the project caused work delays, unnecessary rework, and additional
training.

Although the 2007 Bechtel proposal stated Bechtel had adequate experience and
expertise, TVA conveyed its concerns about the experience and expertise to
Bechtel. In a letter to Bechtel on December 9, 2010, TVA stated, “Bechtel’s
provision of inadequate staff expertise/experience, overstaffing of jobs, and
failure to ensure those who are supposed to be working actually are doing the
work requested by TVA under the Contract represent systematic performance
deficiencies.” Bechtel’s response, as previously noted in this report, identified
joint TVA and Bechtel accountability on the staffing issues.

Insufficient staffing was identified in the February 2010 NGDC draft internal
assessment but was not given adequate attention until after the second Site VP,
WBN Unit 2, identified the problem in February 2011.

Excessive Project Management Turnover
Since the project began, the WBN Unit 2 Bechtel management team has been a
revolving team. The WBN Unit 2 project has had five different Bechtel project
directors. Table 2 shows the number of people who have filled Bechtel’s key
project management roles through January 25, 2012.

          Bechtel Project Management Turnover as of January 25, 2012
                     Position                              Number of People
                  Project Director                                5
               Construction Manager                               6
               Engineering Manager                                4
               Procurement Manager                                1
                 QA/QC Manager                                    3
                                                                                 Table 2
Inspection 2010-13088                                                            Page 17

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                                          Inspection Report


In a March 2011 interview with the OIG, the second Site VP, WBN Unit 2, stated
that the high level of contractor management turnover was a “red flag.”

As Bechtel pointed out in its response to the request for proposal for WBN Unit 2,
a project of this size is too much for one company. They had a hard time bringing
the right people to the project. The high management turnover makes it difficult to
develop consistency and a sense of unity on the project.

Even TVA oversight personnel have seen turnover. The second Site VP was
hired on February 16, 2011, and led the project until a General Manager, WBN
Unit 2, Technical Services, and a General Manager, WBN Unit 2, Engineering
and Construction, were named on February 10, 2012. In fact, the most recent
management change at WBN Unit 2 involved bringing back a former President
and Chief Operating Officer to run Engineering and Construction. The
November 2007 organizational chart for WBN Unit 2 shows 15 individuals who
had a direct oversight role for the project, all of whom were long-term TVA
employees with considerable experience. Several employees of the WBN Unit 2
TVA team were provided incentives to stay and assist with the project, due to their
past experience. Best practice fully utilizes management personnel in developing
mentoring, identifying high-potential employees, and establishing a succession
planning process. With TVA’s emphasis on more nuclear construction, it is
important to build a staff that can carry on that direction into the next 20-plus
years.

The book Industrial Megaprojects11 discusses the importance of continuity in team
leadership. The author states, “Most damaging is the departure of the project
director anytime between FEL-2 and project completion.” The author adds that,
with project leadership turnover, there seems to be “. . . a loss of memory among
some functions and organizations that borders on total amnesia. Agreements
between operations/manufacturing and the project about design features come
unstuck.” Ultimately, management turnover brings its own problems to the table.

Problems With Work Order Package Quantity and Quality
As previously discussed, at the beginning of the project the decision was made to
begin engineering and construction at essentially the same time. Construction
personnel needed detailed instructions or work order packages to be able to
work. These work order packages were developed by work planners based on
design engineering packages, and walkdowns were not performed prior to
completing the work package. Because 25 years had passed since work had
begun on WBN Unit 2, it was difficult to determine what components needed to
be replaced or installed. However, with construction personnel on site, they
needed planned packages as soon as possible. Work order packages were not
being planned fast enough to keep up with the pace of construction.



11
     Edward W. Merrow, “Industrial Megaprojects: Concepts, Practices, and Strategies for Success,”
     Hoboken: John Wiley & Sons, Inc., 2011, pp.180-182.
Inspection 2010-13088                                                                                Page 18

                                    TVA RESTRICTED INFORMATION
Office of the Inspector General                                                             Inspection Report


To be able to get work into the field faster, changes were made in how the work
was packaged. Instead of developing smaller packages, bulk commodities, such
as hangers, cable, or piping, were grouped into large packages in order to get
more work into the field for construction. The bulk commodity packages had a
very large scope and contained work on multiple systems. Work on these
systems required multiple work order packages. Once the work was complete,
the systems were to be turned over to the start-up group for testing. However,
before the systems can be turned over, the physical work must be essentially
complete, and the work order packages must be closed. Since the system
completion schedules varied greatly, not all the work in the bulk commodity
packages was completed, resulting in systems that could not be turned over
because work order packages for bulk commodities were involved and could not
be closed until the work was verified.

In the rush to get work to construction personnel, the quality of work order
packages suffered as well. Work order packages would often contain revisions
or had missing instructions, causing workers in the field to have a hard time
identifying what steps were required. Craft workers often required assistance
from field engineers to understand the work needed. With a limited number of
field engineers, craft workers often found themselves waiting, negatively
impacting the productivity of the craft.

In May 2011, Bechtel and TVA prepared an ETC that showed TVA had identified
inaccuracies with the data in the scheduling system. The schedule showed there
were (1) quantities, or scope, unidentified in the schedule; (2) work order
packages in fieldwork-complete status12 without the work being complete; and
(3) other issues with data in the Bechtel scheduling system. TVA reviewed a
sample of planned work order packages and found that only 10 percent of the
packages were actually workable in the schedule. In addition, TVA identified
approximately 900 work orders in complete status in the schedule but not shown
as complete in Maximo,13 meaning the paperwork was not complete or closed.
As mentioned earlier in this report, to fully understand the scope of work
remaining, more than 2,000 walkdowns have been conducted to verify the
number of components to be added or modified, if the amount of time for the
allotted activities is reasonable, and if the percent of work completed status is
accurate.

NRC Characterized Information Submitted by TVA as Lacking Quality and
Timeliness
On January 27, 2011, the NRC sent a letter to the former SVP, NGDC, on the
status of WBN Unit 2’s operating license application review. In that letter, the
NRC reiterated concerns over the timeliness and quality of the documentation


12
     The fieldwork complete status designates that all the “wrench turning” has been completed.
13
     Maximo is the IBM software TVA uses to manage the Enterprise Asset Management, which is a single
     application for work management, corrective action, and supply chain business functions for the entire
     TVA fleet.
Inspection 2010-13088                                                                                Page 19

                                     TVA RESTRICTED INFORMATION
Office of the Inspector General                                        Inspection Report


submitted that had previously been raised to TVA in another letter dated July 28,
2010. The letter went on to:

    . . . re-emphasize . . . that issues with the timeliness and quality of
    submittals continue to arise, and these issues are impacting the schedule
    for completing the licensing review. As a consequence, the duration of
    review activities to achieve the schedule milestones needed for licensing
    WBN Unit 2 will be extended because of TVA’s difficulty in providing the
    necessary and sufficient supporting information in response to staff
    request for additional information.

The letter stated specific issues with submittals including:

   The final “as-designed” Fire Protection report submitted on December 18,
    2010, found placeholders for future design information, as well as errors and
    omissions, and therefore did not fully meet the NRC’s informational needs.
    Further, “The fire protection review schedule has already been impacted by
    previous delays, and further delays can only worsen the schedule.”
   Regarding the final Safety Analysis report, the NRC stated that “. . . late
    receipt of TVA responses to request for additional information affected the
    NRC staff’s progress.” The letter cited three examples of late submittals and
    partial responses, stating that “TVA has not yet been able to fully address
    these issues.”
   The NRC’s review of TVA’s supplement to the environmental impact statement
    for operation of WBN Unit 2 was extended due to delays in submitting revised
    analyses related to severe accident mitigation alternatives and other
    supporting studies.

The letter closed by stating that action is “. . . imperative for the NRC staff to
complete all of its licensing reviews and inspections consistent with your
schedule to commence operation in fiscal year 2012.” Since the NRC controls
the operating license and the plant cannot operate until that license is obtained, it
is imperative to provide high-quality and timely information to the NRC.

Long Lead Materials Were Not Identified and Ordered Timely
Engineering generates material requests for the major components needed to
complete the work. Procurement uses the engineering specifications to order the
components. If those components cannot be obtained, Procurement relies on
the PEG to identify appropriate substitutions.

As previously stated, engineering must be complete before accurate work order
packages can be issued. Because of the inadequate backlog of work order
packages, construction laborers were relied upon to perform walkdowns and
identify materials needed. This resulted in the late identification of material, and
subsequently, the late ordering of long lead material.


Inspection 2010-13088                                                          Page 20

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                           Inspection Report


The November 9, 2007, monthly review status meeting asserted that long lead
items (greater than 20 months) had been identified and procurement was
underway. However, time and again, we noted reports and presentations
discussing the challenges of procuring certain items, such as the following:

   July 11, 2008 – The Rev 0 Project Schedule challenges include “long lead
    time procurement items.”
   September 25, 2008 – Project Schedule risks include long lead materials.
   October/November 2008 – “Identification of critical and long lead materials to
    support construction and the Rev 0 Schedule . . .” is listed as an issue/
    challenge.
   Week of November 24, 2008 – In a project meeting, the former Site VP, WBN
    Unit 2, stated that with the current process for identifying missing valves, it
    would take 10 years to identify them all. He further stated that the project
    could not continue to operate this way.
   December 2008/January 2009 – The monthly progress report described
    “. . . continued focus on identification of critical and long lead materials to
    support Construction and the Rev. 0 . . .” as an issue/challenge.
   May 1, 2009 – The Monthly Management Review status report showed a
    “continued focus on long lead procurements.”
   November 6, 2009 – The Monthly Management Review status report showed
    a focus area to “. . . continue to identify remaining long lead procurements
    with Engineering.”
   Week of November 16, 2009 – In a project meeting, management stated that
    valves had been identified that needed to be ordered. The lead time was
    unknown until the packages could be completed and submitted to vendors for
    bids.
   February 2010 – The NGDC draft internal assessment stated, “Procurements
    for engineered materials continue to threaten the schedule e.g. ERCW and
    CCS ASME Valves. Until Engineering is completed, the full extent of
    schedule impact from delayed material delivery cannot be fully determined
    and remains a risk.”

Even with continual focus, by March 10, 2010, 213 ASME valves, 57 safety-
related valves, and 163 quality-related valves had not been ordered. During the
following week, the project identified an additional 122 quality-related valves that
had not been ordered, indicating that the project still did not have a good grasp
on the material needed to complete the project.

A December 2010 WBN Unit 2 Threats to Schedule presentation showed that
Bechtel was “behind in identifying and ordering parts.” The presentation also
showed “1088 valves that have not been delivered” with a mitigation plan for
expediters to work with Engineering to look at Bellefonte valves and be in contact
Inspection 2010-13088                                                             Page 21

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                        Inspection Report


with the vendors to make sure delivery dates are on track. A February 2011
presentation by the original Site VP, WBN Unit 2, showed that procurement of
safety-related ASME valves could challenge the project’s critical path. In fact,
Bechtel hired six to eight expediters in order to get the materials on site faster
with minimal additional charge.

TVA’S ACTIONS TO ADDRESS IDENTIFIED PROBLEMS
TVA recognizes and acknowledges the problems with the WBN Unit 2 project
and has taken a number of steps to make improvements not only for WBN Unit 2
but also future nuclear construction projects.

On April 5, 2012, the Chief Executive Officer and SVP, Nuclear Construction,
held a public meeting at WBN Unit 2 in which they discussed the revised schedule
and budget and factors that caused the cost and schedule slippage. TVA now
estimates the cost of completion to be between $4 billion and $4.5 billion with an
estimated time of completion between September and December 2015. The
factors discussed were:

   Leadership – A failure to verify the rigor in the cost and schedule targets.
   Estimating – Using BFN productivity rates even though the situation at WBN
    Unit 2 was vastly different.
   Executing – Work orders that were too complex and cumbersome and
    contained insufficient detail because all walkdowns were not performed.
   Overseeing – A lack of early, straightforward metrics to highlight problems.

With respect to management actions to address the problems, one major action
was to develop a comprehensive ETC for the WBN Unit 2 project. The ETC is
the forecasted scope, budget, and schedule to complete the project. The ETC
included the following:

   Walkdowns to determine and validate quantities and verify accuracy.
   Estimating resource needs for subcontractors, support organizations, and
    nonmanual personnel.
   Developing risk ranges.
   Extensive management review.
   Independent assessment.

This ETC was approved by TVA’s Board of Directors during the April 2012 Board
meeting.

Additionally, an internally led team performed an extensive root cause analysis to
understand the underlying issues that resulted in the cost overruns and schedule
delays. The team identified ineffective leadership, inaccurate estimates,
Inspection 2010-13088                                                          Page 22

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                        Inspection Report


ineffective execution, and inadequate NGDC/TVA oversight and assurance as
primary root causes. External consultants from McKinsey and Company reviewed
this analysis to identify any gaps or weaknesses.

Corrective actions have been taken related to planning documents, field
engineering, schedule and cost monitoring tools, and the change control process.
Specifically,

   To offer an accurate status of the project, weekly project and abbreviated
    management reports are being prepared. These differ from status reports
    earlier in the project because of the level of detail and data provided. Some
    of the key indicators include Cost Performance Index, Schedule Performance
    Index, and scope growth. Not only is this information included for the project
    as a whole, but also by individual commodity type.
   An alignment and engagement strategy was developed to address cultural
    issues that existed with the workforce.
   A communication plan was developed to document how information and
    updates will be given to stakeholders.
   Team rules have been prepared to communicate the behaviors that are
    acceptable on the project.
   Other corrective actions related to improved productivity are planned or in
    process.

In addition, Nuclear Construction and TVA Corporate’s corrective actions,
including a planned review of the accuracy of the Bellefonte estimate,
restructuring the independent Project Assurance Organization, and developing
a contracting strategy for various project classifications are planned or in
progress. TVA’s actions are positive and should help to improve the process for
WBN Unit 2 and future projects.

RECOMMENDATIONS
As a result of set-up flaws and oversight that was too narrowly focused and
managed by too few, the project has paid a high cost. With TVA entering into
another nuclear construction project in the near future, there are multiple
opportunities to learn from this project’s mistakes. To improve the schedule and
cost performance of nuclear construction projects, we recommend TVA’s Nuclear
Construction organization:

   Develop a consistent and thorough approach for planning and estimating
    nuclear construction projects including, but not limited to, a range of estimates
    with probabilities, key risk assumptions, and contingency amounts.
   Develop contingencies for supplementing contractors’ expertise in case they
    are unable to provide qualified resources.

Inspection 2010-13088                                                          Page 23

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                        Inspection Report


   Develop contingencies for obtaining the ASME certifications for future
    projects as applicable.
   Require design engineering be substantially complete before starting
    construction on nuclear projects.
   Establish controls over the development and reporting of project performance
    data and provide for independent verification of the data.
   Assess the cultural climate to determine if the actions of certain, former key
    management have affected the organizational culture. Additionally, provide an
    opportunity for WBN Unit 2 personnel to voice their concerns about the culture
    that exists currently and views about what should be done to create a more
    transparent culture.
   Evaluate project incentives to ensure they will deliver desired results.
   Address aging nuclear workforce issues by developing a program for
    transferring knowledge.
   Work collaboratively with TVA’s Board of Directors to evaluate the benefits of
    retaining the services of nuclear construction experts to monitor large nuclear
    construction projects’ progress and report results directly to the Board.

BECHTEL’S RESPONSE
On May 7, 2012, Bechtel management responded in writing to a draft of this
report. Bechtel disagreed with “. . . several of the Draft Report’s implications and
have identified conclusions that we believe are not supported by the project
record.” We carefully reviewed Bechtel’s comment letter and reevaluated the
report and supporting documentation, and remain confident in the report’s
information and conclusions; therefore, we made no changes to the report based
on Bechtel’s comment letter. Below, we discuss certain key points in Bechtel’s
response and our evaluation of them.

Bechtel’s first concern was the report could be interpreted that Bechtel’s project
data “. . . attempted to cloud rather than draw attention to problems and
challenges the project faced.” Specifically, Bechtel focused on the feasibility of
craft resource levels; whether reforecasting of the schedule “set aside or ignored
historical data;” and whether milestone payments were related to the project
schedule.

Bechtel provided multiple examples from Rev 1, which expressed its concerns
regarding craft resource levels. According to Bechtel, Rev 1 “. . . acknowledged
our judgment that the resource levels to achieve TVA’s direction were impractical,
and identified other risks confronting the project at that point.” Bechtel further
states, “. . . our forecasts clearly documented the project’s performance at each
stage and provided sufficient information for TVA to understand the challenges
and risks associated with each forecast.”

Inspection 2010-13088                                                          Page 24

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                       Inspection Report


We agree Bechtel raised concerns in Rev 1 related to achieving peak-craft levels.
However, as noted on page 15 of this report, our point related to staffing levels is
that while risks may have been pointed out in detailed 80 page reports, that
information was not included in certain other project reports at key points when
project performance was reviewed, thus obscuring the project’s performance and
concerns about achieving the stated performance targets. For example, the first
joint TVA/Bechtel monthly management package following the issuance of the
Rev 1 schedule, dated November 6, 2009, concluded “. . . the schedule remains
48 months to ready for fuel load.” This monthly management package was
reviewed at the site by key TVA and Bechtel managers and, in our opinion, the
conclusion that the schedule remained achievable could have masked the
concerns Bechtel raised in the Rev 1 schedule. Moreover, even later in the
project, Bechtel documented staffing levels as a challenge in the October 2010
Estimate at Completion but in the same document concluded the project was on
schedule for the 48 months ready for fuel load.

Similarly, Bechtel contends they do not understand the conclusion reached that
the December 3, 2010, chart made it harder to identify past trends. In the chart
dated October 8, 2010, Bechtel included the planned number of hours completed
as well as the actual hours for each week. This made it easy for the reader to
determine if the project was getting the work done each week. However, the
December 3, 2010, chart only shows the actual hours and does not include the
planned hours for each week. Those who were not on the project site on a daily
basis might not have known that some of the weekly planned hours were not
being completed.

Bechtel also disagrees that “. . . the milestone tasks and activities that TVA and
Bechtel used to set goals for the upcoming year were unrelated to the project
schedule”. As pointed out in the report, the justification for having milestone
measures was to support the goal of meeting or exceeding the work schedule
based on work planned to achieve, or to better, the schedule plan. Since Bechtel
was able to achieve 35 of 38 milestone tasks during the first 2 years of the
project, while being 1.29 million hours behind schedule, the milestones were
clearly not a good indication the project was meeting the schedule.

Lastly, Bechtel said they believed “. . . the approach taken with the DSEP in 2007
was consistent with what all concerned then viewed as reasonable practices to
conduct an assessment of the cost and schedule to complete construction of
WBN Unit 2.” We find this assertion quite concerning. TVA recently reported that
$800 million of the $1.7 billion project overrun (most likely estimate within the
estimate range) was tied to errors in the estimation process. These errors were
related to unit rates, walkdowns being stopped too early, and lack of contingency.
In our opinion, for the global engineering and construction company hired to
perform the estimate to say the approach was reasonable when current estimates
show that, at best, the estimate was off by $800 million is unconvincing.



Inspection 2010-13088                                                         Page 25

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                       Inspection Report


Bechtel management also separately provided technical and clarifying comments
that we evaluated and incorporated into the final report, as appropriate.

See Appendix A for Bechtel’s complete response.

TVA’S RESPONSE
On May 15, 2012, TVA management responded in writing to a draft of this report.
TVA agreed with the fundamental findings and recommendations in the report.
TVA also suggested a wording change for clarity and consistency that has been
incorporated into the final report. Further, TVA’s comments included the opinion
that Bechtel’s response to the draft report ignored Bechtel’s contributions to the
project’s problems. However, TVA determined it was not constructive to respond
to Bechtel on a point-by-point basis, choosing instead to focus on moving forward.

In response to our recommendations, TVA management has completed or plans
to complete the following actions:

   TVA has included a range of estimates and contingencies based on identified
    risks within its new estimate for WBN Unit 2.
   TVA has revised the contract with Bechtel to give TVA the authority to assign
    tasks to other contractors as appropriate and has contracts with other
    construction and engineering firms in place to supplement resources as
    needed.
   While it is not feasible to revisit the ASME process for the WBN Unit 2 project,
    TVA stated it will determine appropriate contingencies to ensure a single
    ASME stamp holder does not impede project progress prior to beginning full
    construction at Bellefonte.
   TVA identified outstanding engineering work for WBN Unit 2 and has
    developed a work-off indicator to ensure engineering work is completed as
    needed.
   TVA has developed a set of standard metrics that will be reviewed by Senior
    Project management weekly and an executive management package that will
    be issued monthly. Additionally, TVA has begun implementation of a Project
    Assurance group that will perform independent assessments of project status
    reporting and provide the results of these assessments to executive
    management.
   Nuclear Construction management will continue to employ the Organizational
    Health Index to give independent and confidential assessment of employee
    attitudes. Additionally, Nuclear Construction is developing the Alignment and
    Engagement Strategy to improve the culture of the workforce. Interim
    measures, such as a detailed communication plan and Employee Advisory
    Group, have been instituted to improve alignment and engagement.


Inspection 2010-13088                                                         Page 26

                                  TVA RESTRICTED INFORMATION
Office of the Inspector General                                      Inspection Report


   TVA has revised the Bechtel contract to establish a more performance-based
    incentive program.
   Nuclear Construction management has instituted a formal succession
    planning activity. In addition, TVA and Bechtel management have agreed to
    open dialog concerning employee performance.
   TVA has reinstated the Construction Safety Review Board to review
    construction activities and provide an assessment from a safety perspective
    and look into project performance issues. The Construction Safety Review
    Board will provide their results to the Nuclear Oversight Committee, chartered
    by the Board of Directors.

Additionally, TVA management plans to incorporate these actions, as applicable,
on the Bellefonte completion project. The OIG concurs with TVA’s planned and
completed actions. However, we encourage Nuclear Construction management
to take additional actions to assess the culture at WBN Unit 2 by seeking input
from both TVA employees and contractors working on the project.

See Appendix B for TVA’s complete response.




Inspection 2010-13088                                                        Page 27

                                  TVA RESTRICTED INFORMATION
                             APPENDIX A
                              Page 1 of 8




TVA RESTRICTED INFORMATION
                             APPENDIX A
                              Page 2 of 8




TVA RESTRICTED INFORMATION
                             APPENDIX A
                              Page 3 of 8




TVA RESTRICTED INFORMATION
                             APPENDIX A
                              Page 4 of 8




TVA RESTRICTED INFORMATION
                             APPENDIX A
                              Page 5 of 8




TVA RESTRICTED INFORMATION
                             APPENDIX A
                              Page 6 of 8




TVA RESTRICTED INFORMATION
                             APPENDIX A
                              Page 7 of 8




TVA RESTRICTED INFORMATION
                             APPENDIX A
                              Page 8 of 8




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 1 of 7




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 2 of 7




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 3 of 7




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 4 of 7




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 5 of 7




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 6 of 7




TVA RESTRICTED INFORMATION
                             APPENDIX B
                              Page 7 of 7




TVA RESTRICTED INFORMATION
